                                 AUDIT OF SBA’S
                        INFORMATION SYSTEMS CONTROLS
                              FISCAL YEAR 2000
                            AUDIT REPORT NO. 1-12

                                  MARCH 27, 2001




This report may contain proprietary information subject to the provisions of 18 USC
1905 and must not be released to the public or another agency without permission of
the Office of Inspector General.
                        U.S. SMALL BUSINESS ADMINISTRATION
                               OFFICE OF INSPECTOR GENERAL
                                 Washington, D.C. 20416


                                                  AUDIT REPORT
                                                  Issue Date: March 27, 2001
                                                  Report Number: 1–12

TO:            Lawrence E. Barrett
               Chief Information Officer

               Joseph P. Loddo
               Chief Financial Officer

               Herbert L. Mitchell
               Associate Administrator for Disaster Assistance


FROM:          Robert G. Seabrooks
               Assistant Inspector General for Auditing

SUBJECT:       Audit of SBA’s Informa tion Systems Controls – Fiscal Year 2000

        Attached is the Independent Accountant’s Audit Report on Information Systems
Controls, issued by Cotton & Company LLP. As part of the audit of SBA’s FY 2000 financial
statements, the auditors reviewed the general controls over SBA’s financial management systems
to determine if those controls complied with various Federal requirements. General controls are
the policies and procedures that apply to all or a large segment of an entity’s information systems
to help ensure their proper operation. They impact the overall effectiveness and security of
computer operations, rather than specific computer applications. Federal requirements for
general controls include Office of Management and Budget (OMB) Circular A-130, Security of
Federal Automated Information Resources and the Computer Security Act of 1987.

       The auditors concluded that SBA has continued to make significant progress in
implementing its information systems security program, but that improvements are still needed.
The report describes areas where controls can be strengthened, such as (1) monitoring, assessing
and measuring security program effectiveness, (2) physical access to network servers; (3)
documenting application development; (4) changes to operating system configurations; (5)
segregation of duties; and (6) disaster recovery plan testing. The report also provides
recommendations for strengthening controls in these areas.
       The findings included in this report are the conclusions of the independent auditor and the
Office of Inspector General's Auditing Division. The findings and recommendations are
subject to review, management decision, and corrective action by your office in accordance
with existing Agency procedures for audit follow-up and resolution.

       We request that the Office of the Chief Information Officer provide the management
decision for the recommendations in this report. Please provide the proposed management
decision on the attached SBA Form 1824, Recommendation Action Sheet, within 30 days. If
you disagree with the recommendations, please provide your reasons in writing.

       This report may contain proprietary information subject to the provisions of 18 USC
1905. Do not release to the public or another agency without permission of the Office of
Inspector General.

       Should you or your staff have any questions, please contact Robert Hultberg Director,
Business Development Programs Group at (202) 205-7204.

Attachments
               AREAS FOR IMPROVEMENT IN COMPUTER CONTROLS
                 FISCAL YEAR 2000 FINANCIAL STATEMENT AUDIT
                     U.S. SMALL BUSINESS ADMINISTRATION


         Cotton & Company LLP audited the Fiscal Year (FY) 2000 financial statements of the
U.S. Small Business Administration (SBA). As part of that audit, we reviewed general controls
over SBA’s information systems following guidance provided in the General Accounting
Office’s (GAO’s) Federal Information Systems Control Audit Manual (FISCAM). The purpose
of this report is to communicate the results of that review and make recommendations for
improvements. Although weaknesses continue to exist, we commend the agency for the
substantial progress it has made toward implementing an agency-wide information systems
internal control program. Because of this progress, we no longer consider this area to be a
material weakness.

BACKGROUND

       General controls are the policies, procedures, and practices that apply to all or a large
segment of an entity’s information systems to help ensure their proper operation. They impact
the overall effectiveness and security of computer operations, rather than specific computer
applications. GAO categorizes general controls as follows:

       •       Entity-wide security program controls to provide a framework and continuing
               cycle of activity for managing risk, developing security policies, assigning
               responsibilities, and monitoring the adequacy of computer-related controls.

       •       Access controls to limit or detect access to computer resources (data, program,
               equipment, and facilities), thereby protecting these resources against unauthorized
               modification, loss, and disclosure.

       •       Application software development and program change controls to prevent
               implementation of unauthorized programs or modifications to existing programs.

       •       System software controls to limit and monitor access to powerful programs and
               sensitive files that control computer hardware and secure applications supported
               by the system.

       •       Segregation-of-duty controls to provide policies, procedures, and an
               organizational structure to prevent one individual from controlling key aspects of
               computer-related operations and thereby conducting unauthorized actions or
               gaining unauthorized access to assets or records.

       •       Service continuity controls to ensure that when unexpected events occur, critical
               operations continue without interruption or are promptly resumed, and critical and
               sensitive data are protected from destruction.



                                                1
SBA’S INFORMATION SYSTEMS ENVIRONMENT

       SBA’s financial management information system environment is decentralized. It is
comprised of six major components operated and maintained by all SBA offices and external
contractors, as described below.

       •      Loan Accounting System (LAS), a set of mainframe programs that processes
              and maintains accounting records and provides management reports for SBA’s
              loan programs. The Office of the Chief Information Officer (OCIO) is responsible
              for developing and maintaining LAS system software and hardware. LAS is
              operated under contract with SBA by the Unisys Corporation at its Eagan,
              Minnesota facility.

       •      Automated Loan Control System (ALCS), a mini-computer system maintained
              and operated at each of SBA’s four Disaster Area Offices. ALCS tracks and
              processes disaster loan applications. After loan approval, it interfaces with LAS
              to update SBA’s loan records. The Office of Disaster Assistance (ODA) operates
              ALCS and is responsible for developing and maintaining system software and
              hardware.

       •      Denver Finance Center Systems (DFC), a variety of specialized programs
              developed and maintained by the Office of the Chief Financial Officer (OCFO).
              These programs perform various functions such as (1) exchanging data with
              SBA’s business partners, (2) processing and maintaining disbursement and
              collection records, and (3) interfacing with LAS.

       •      Federal Financial System (FFS), a mainframe financial management system
              used by all SBA offices for administrative accounting functions. The Department
              of the Treasury’s Financial Management Service (FMS), under a contract
              administered by OCFO, is responsible for software and hardware development
              and maintenance.

       •      Local and Wide-Area Networks (LANs and WANs), communications systems
              maintained and operated by all the SBA offices to (1) provide gateways to LAS,
              ALCS, and FFS, (2) allow offices to share files and communicate electronically,
              (3) transfer data among systems, and (4) provide Internet access. OCIO develops
              and disseminates guidance and procedures for the operation of these systems and
              periodically monitors to ensure compliance.

       •      Surety Bond Guarantee (SBG) System, a client server system developed and
              maintained by OCIO that processes SBG program records and exchanges
              accounting information with FFS.

       In addition, SBA’s financial management activities rely on systems developed,
maintained, and operated by external parties such as Colson, Inc., ACS-GSG (formerly known as
CDSI) and the National Finance Center, for processing and exchanging data related to functions
such as loan servicing and payroll.

                                              2
FY 2000 AUDIT RESULTS

       During FY 2000, SBA significantly improved internal control over its information system
environment. Specifically, it accomplished the following:

       •      For each major application, assigned a security manager knowledgeable in the
              program supported by the application.

       •      Conducted certification and accreditation reviews of each major application, the
              network, and mainframe computer.

       •      Implemented an online security awareness training program to instruct SBA
              employees and contractors on their information system security responsibilities;
              employees and contractors are required to complete this program annually.

       •      Developed procedures to notify security personnel of changes in employee status
              and system access requirements.

       •      Developed position descriptions for security administration personnel that include
              specific responsibilities and technical requirements.

       •      Adopted a System Development Methodology to improve control over new
              system development, system enhancements, and program changes.

       •      Developed quality control procedures and practices for documenting test plans
              and results for new systems, system enhancements, and program changes.

       •      Reduced programmer access to operating systems, system utilities, application
              software, and production data and implemented procedures to monitor
              programmer access.

       •      Developed and implemented procedures and practices to assess (1) critical system
              functions and (2) controls to identify incompatible duties and enforce SBA’s
              “Rule of Two.”

       •      Completed development of disaster recovery and business continuity plans.

       •      Developed procedures for reviewing and approving security plans and risk
              assessments as part of the certification and accreditation process.

       These actions are essential elements for a sound information system control environment.
Areas for improvements do, however, continue to exist in the six FISCAM categories. In the
remainder of this report, we discuss these areas and present our recommendations for
improvements.

       Attachment 1 provides an overall summary of the audit results. Ratings were assigned to
each of the six major system groups and general control techniques. For controls rated “1,” SBA

                                               3
has implemented adequate policies, procedures and practices. For controls rated “2*,” controls
had been recently implemented, but insufficient time had passed for the controls’ effectiveness to
be fully evaluated. For controls rated “2,” controls were in place, they but had not been fully
implemented, e.g. personnel responsible for implementing the control did not possess the
necessary knowledge or experience, the control’s effectiveness was reduced by weaknesses in
other areas, or the control was only partially integrated into the related business processes.


1.     Entity-Wide Security Program Controls

        SBA has developed an entity-wide security program that provides a framework for
managing risk, developing security policies, assigning responsibilities, and monitoring the
adequacy of computer-related controls. SBA has not, however, achieved full implementation of
this program. During our audit, we noted four conditions that weaken the overall information
system control environment.

         The most significant of those conditions involves security monitoring. OCIO has not
fully implemented procedures and processes for carrying out security monitoring functions,
activities, and responsibilities. This includes developing criteria for measuring security program
effectiveness and reporting results to senior management. OCIO’s current procedures and
processes do not comply with GAO’s Internal Control Standards for ongoing monitoring in the
course of normal operations.

        Further, the procedures do not ensure that identified deficiencies and recommendations
are promptly reviewed, and corrective actions are implemented in a timely manner. For instance,
control deficiencies identified in June 2000 accreditation and certification reviews had not been
addressed as of December 2000.

       The other three conditions related to the entity-wide security program are:

       •       Network and application security administrators are not knowledgeable of
               security controls necessary to assess user requests for privileges or perform
               routine housekeeping actions.

       •       OCIO’s strategic information resources management plan does not fully reflect
               the information technology initiatives currently underway or planned, and does
               not include a summary of the security plans as required by OMB Circular A-130.

       •       Roles and responsibilities between the OCIO, the Office of Human Resources and
               SBA program offices are not clearly defined as they relate to items such as (1)
               notifying security administrators of changes to SBA employee and contractor
               employment status, (2) identifying sensitive positions and the need to access
               sensitive information, and (3) obtaining confidentiality and conflict-of-interest
               statements.

        Without full implementation of the entity-wide security program, the overall
effectiveness of the program is diminished.

                                                4
Recommendations:

      We recommend that the Chief Information Officer, in conjunction with the appropriate
program offices:

       1A.     Develop and implement procedures for monitoring, assessing, and measuring
               security program effectiveness.

       1B.     Provide training and annual retraining for network and application security
               administrators to enable them to understand security controls necessary to assess
               user requests and perform routine housekeeping actions.

       1C.     Ensure that SBA’s strategic plan is updated annually to reflect the approved
               information technology plan and initiatives and include a summary of the security
               plans.

       1D.     Clearly define and document roles and responsibilities of OCIO, the Office of
               Human Resources and SBA program offices as they relate to notifying security
               administrators of changes to SBA employee and contractor employment status,
               identifying sensitive positions and the need to access sensitive information, and
               obtaining confidentiality and conflict-of-interest statements.

2.     Access Controls

       Physical and logical access controls are designed to protect an agency’s assets against
unauthorized modification, loss, and disclosure. SBA has made significant and important
improvements in its controls to limit or detect access to its computer resources. We noted,
however, three specific areas in which access controls could be improved:

       •       Although physical safeguards for the majority of SBA’s network servers are
               adequate, for some servers these safeguards can be improved. For example, a
               number of network servers are located in a room with an electronic door lock; the
               locks are not, however, connected to a backup power supply and, as such,
               deactivate during power outages. Also, we noted other network servers left
               unattended and unsecured, and, at one location, the network server was located
               within the main work area of an office.

       •       Universal network accounts with both local and wide area network privileges
               were not properly secured with a password.

       •       User passwords were not always configured for the minimum length of 8
               characters and were not changed every 90 days. In addition, some user accounts
               permitted an unlimited number of failed log-on attempts.

      OMB A-130, Management of Federal Information Resources, Appendix III, Security of
Federal Automated Information Systems, requires agencies to establish physical security
commensurate with the risk and magnitude of the potential resulting harm. Further, SBA’s

                                                5
Standard Operating Procedure (SOP) 90-47, Automated Information System Security Programs,
specifies controls applicable to user passwords and log-on attempts.

        SBA has sound policies and procedures over access to its various systems; however,
many of the individuals responsible for controlling access are not trained sufficiently to ensure
that these policies and procedures are implemented and carried out as designed. As a result,
SBA’s ability to control or detect access to computer resources is limited.

Recommendations:

      We recommend that the Chief Information Officer, in conjunction with appropriate
program offices:

       2A.     Develop and implement procedures to ensure the physical security of network
               servers at all times including during power outages.

       2B.     Establish monitoring procedures for periodic tests of local networks and
               applications to ensure that user accounts are properly established and comply with
               SBA’s standards.

3.     Application Software Development and Program Change Control

       SBA’s application software development and program change controls need to be
improved to prevent implementation of unauthorized programs or modifications to existing
programs. We noted that documentation for system and program changes was outdated, and
documentation supporting tests of program changes was inadequate. Specifically, we found that
user and programmer test plans and results are not documented to demonstrate that programs are
properly tested and approved prior to being placed in operation.

       OCIO requires basic documents for all systems, including user requirements, design
documents, test plans, implementation, and acceptance documents. It also requires retention of
User Request Forms that detail program changes; these forms are required to be signed by the
programmer and the user to acknowledge acceptance of the change. Compliance is not enforced,
because control procedures do not exist to ensure that documentation is being updated and
maintained.

        Not properly documenting system and program changes increases the risk that SBA
personnel using an application and relying upon the results will not be knowledgeable enough
about the program to identify errors. Additionally, programmers may be relying upon outdated
and inaccurate program information if documentation is incorrect.

Recommendation:

       We recommend that the Chief Information Officer:

       3A.     Develop quality control program procedures to periodically review existing
               applications to assure that documentation is kept current and accurately reflects
               the cumulative affects of program changes made over time.
                                                 6
4.     System Software Controls

         Properly designed system software controls limit and monitor access to programs and
files that control computer hardware and secure applications. SBA has adequate system software
controls. We did, however, identify instances where controls need to be improved. For example,
we found that SBA’s local area network servers are not standardized, and monitoring procedures
are not in place to ensure that changes to servers are approved, consistent among offices, and
compatible with existing network protocols as required by Federal Information Processing
Standards. Local area network administrators do not consult or seek approval prior to
implementing changes to the network servers, thereby increasing the risk that inappropriate
software changes are made, data are corrupted, and sensitive data are modified or released to
unauthorized individuals.

Recommendations:

       We recommend that the Chief Information Officer:

       4A.     Develop procedures to require review and approval of all proposed changes to
               server configurations.

5.     Segregation-of-Duty Controls

        SBA generally has appropriate segregation of duties throughout its information system
environment; individuals generally do not have the ability to conduct unauthorized actions or
gain unauthorized access to assets or records. We did, however, identify some instances of
inadequate segregation of duties. For example, one individual at a field office was the security
officer for LAS, a senior loan officer on LAS, and had supervisory privileges on the Field
Cashiering System.

         OMB Circular A-130, Appendix III, requires agencies to establish and implement
controls within the general control environment and major applications that support the “Least
Privilege” practice. Also, OMB requires establishing and implementing practices to divide steps
of critical functions among different individuals and establishing practices to keep a single
individual from subverting a critical process.

        Inadequate segregation of duties resulted from workforce changes, which required
reassignments without regard or knowledge of their impact. Where we did identify inappropriate
segregation of duties, however, SBA management took immediate actions to eliminate the
incompatible duties. Improper segregation of duties increases the risk of unauthorized activities
and may result in a loss of funds.

Recommendation:

      We recommend that the Chief Information Officer, in conjunction with the appropriate
program offices:



                                                7
       5A.    Continue its efforts to identify and eliminate incompatible duties, responsibilities,
              and functions.

6.     Service Continuity Controls

        Properly designed service continuity controls ensure that operations continue
uninterrupted when unexpected events occur. We noted two conditions that, if improved, will
enhance SBA’s ability to ensure such uninterrupted operations:

       •      SBA has not tested its non-mainframe computer contingency plans.

       •      SBA does not properly store offsite its backup and recovery tapes for network
              data, files, and software.

       OMB Circular A-130, Appendix III, requires agencies to develop, implement, and test
contingency plans and to properly secure and protect backup and recovery tapes.

        SBA has not completed its contingency plans and has not made arrangements for offsite
storage of backup and recovery tapes. The agency is continuing to develop contingency plans
and is reviewing a contract proposal for offsite storage.

        Without contingency plan testing, SBA has reduced assurance that the plans adequately
address contingencies and provide an orderly and reasonable recovery process. Improper storage
of backup and recovery tapes may increase recovery time and increase the potential for improper
release, theft, and destruction of information and tapes.

Recommendations:

      We recommend that the Chief Information Officer, in conjunction with the appropriate
program offices:

       6A.    Develop a contingency test plan and schedule.

       6B     Expedite its review and establish standard procedures for storing backup and
              recovery tapes. As an interim procedure, permit offices to store backup and
              recovery tapes in a bank safety deposit box.


MANAGEMENT RESPONSE

       In response to a draft of this report, SBA management generally agreed with the findings
and recommendations, but expressed concern about the report’s lack of support for our
assessments of controls. Management also disagreed with several of the ratings in Attachment 1,
and expressed concern that the ratings may give a false impression of the state of SBA’s security
program. A copy of management’s response is provided as Attachment 2.




                                                8
EVALUATION OF MANAGEMENT RESPONSE

        We agree with management that the draft report did not contain details supporting all the
ratings provided in Attachment 1. It was not our intention to provide such details in the report,
but rather to communicate our overall assessment of controls and provide general information
about areas for improvement – with details to be provided separately. Some of the details
supporting our assessments are sensitive and inappropriate for inclusion in a report that will be
made public.

        We met with management representatives and provided them additional details to support
the ratings in Attachment 1. We also modified the report to clarify our assessments and address
other issues raised in management’s response.




                                                9
                                                                                                             Attachment 1

FY 2000 CFO AUDIT –
INFORMATION SYSTEMS CONTROL REVIEW                                                                  SYSTEM
                                                                                                                    LANs
              GENERAL CONTROL CATEGORIES AND                                   LAS     ALCS       FFS      DFC       &           SBG
                SPECIFIC CONTROL TECHNIQUES                                                                         WAN

ENTITY- WIDE SECURITY PROGRAM CONTROLS
Risks are periodically assessed.                                                 1        1         1        1         1          1
Security program is documented.                                                  1        1         1        1         1          1
Security management structure is in place and responsibilities assigned.         1        1         1        1         2          2
A personnel security policy is established.                                      1        1         1        1         1          1
A security-monitoring program is established.                                    2        2         2        2         2          2

ACCESS CONTROLS
Information is properly classified.                                              1        1         1        1         1          1
User access and privileges are authorized.                                       2       2*        2*       2*        2*         2*
Physical and logical controls prevent and detect unauthorized activities.        2        2        2*       2*         1          2
Apparent unauthorized activities are monitored and investigated.                 2        2        2*       2*         1          2

APPLICATION SOFTWARE DEVELOPMENT AND PROGRAM
CHANGE CONTROLS
Program modifications are documented, reviewed, tested, and approved.            1        1         4        1         4          2
Program changes are documented, reviewed, tested, and approved before            1        1         4        1         4          2
releasing to production.
Movement of programs in and out of libraries is authorized.                      1        1         4        1         4         2*

SYSTEM SOFTWARE CONTROLS
Access to system software is limited.                                            2        2         4        1         1          1
System access is monitored.                                                      2        2         4        1         1          1
Changes to system are authorized and documented.                                 1        1         1        1         1          1

SEGREGATION OF DUTIES CONTROLS
Incompatible duties are identified.                                              1        1         1        1         1          1
Segregation of duties is enforced through access controls.                       2        2        2*       2*        2*          2
Segregation of duties is enforced through formal operating procedures and        2        2        2*       2*        2*          2
supervisory review.

SERVICE CONTINUITY CONTROLS
Critical data and resources for recovery and establishment of emergency          1        1         1        1         1          1
processing procedures are identified.
Procedures exist for effective backup and offsite storage of data and            1        2         1        1         2          2
application and system software.
Business contingency and continuity and disaster recovery plans with hot-        1        2         2        2         2          2
site facilities and annual testing are established.


LEGEND
1 – Control in place. 2 - Control in place, but not fully implemented. 2* - Recently implemented control, not fully evaluated.
3 – Control not in place. 4 - Control not applicable.




                                                                 10
                             REPORT DISTRIBUTION


Recipient                                          Copies

Associate Deputy Administrator for
 Management & Administration                          1

Associate Administrator for Field Operations          1

Assistant Administrator
 Office of Congressional & Legislative Affairs        1

Associate Administrator
 Office of Financial Assistance                       1

General Counsel                                       2

General Accounting Office                             2
